         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Personnel Access and
       Security System Would Benefit
       from Improved Project
       Management to Control Costs and
       the Timeliness of Deliverables

       Report No. 08-P-0271

       September 22, 2008
Report Contributors:             Rudolph M. Brevard
                                 Cheryl Reid
                                 Teresa Richardson




Abbreviations

CMM          Contracts Management Manual
EPA          U.S. Environmental Protection Agency
EPASS        EPA Personnel Access and Security System
HSPD         Homeland Security Presidential Directive
IT           Information Technology
OARM         Office of Administration and Resources Management
OIG          Office of Inspector General
OMB          Office of Management and Budget
SDLC         System Development Life Cycle
SLCM         System Life Cycle Management
SMD          Security Management Division
SOW          Statement of Work
WQX          Water Quality Exchange
                                                                                                         08-P-0271
                        U.S. Environmental Protection Agency                                     September 22, 2008
                        Office of Inspector General


                        At a Glance

                                                                          Catalyst for Improving the Environment


Why We Did This Review           EPA Personnel Access and Security System
                                 Would Benefit from Improved Project Management
We evaluated the cost            to Control Costs and the Timeliness of Deliverables
justifications for major
Information Technology (IT)       What We Found
investments in the U.S.
                                 EPA has put into place processes to adequately justify costs of projects identified
Environmental Protection
                                 in its IT investments portfolio. However, the lack of key project management
Agency (EPA) IT investment
                                 practices prevents it from achieving many of the projected milestone and budget
portfolio. We also evaluated
                                 estimates. In particular, EPA did not require the EPA Personnel Access and
contracted work for IT
                                 Security System (EPASS) contractor to follow Agency procedures for system
investments to determine
                                 development. EPASS did not have a Project Manager authorized to oversee the
whether the work met EPA’s
                                 contractor’s work. EPA also paid for invoices that contained contractor labor
(1) time and budget estimates,
                                 overcharges. These system development procedures are designed to help
and (2) intended needs.
                                 management better predict and control project costs. Had EPA implemented
                                 processes to mitigate many of the identified system development weaknesses, it
Background                       would have been better able to anticipate and possibly avoid most of the additional
                                 $983,216 in costs for EPASS. Further, had EPA implemented formal review
EPA received $346 million in     procedures for contractor invoices, it would have prevented paying an estimated
system development and/or        $75,276 in over-billed contractor labor charges. We were unable to determine
maintenance funding for          whether the EPASS work would meet EPA’s intended needs because the project is
Fiscal Year 2007. This           under further development.
funding includes IT
acquisition costs for contract    What We Recommend
services to develop and/or
maintain IT systems.             Our recommendations to the Director, Security Management Division, Office of
                                 Administration, Office of Administration and Resources Management, are to:
                                     •	 Develop and maintain an EPASS System Management Plan that includes
                                         the required Change Management and information security documents.
                                     •	 Appoint a certified EPASS Project Manager with authority to oversee
                                         contractor work and ensure compliance with EPA’s System Life Cycle
                                         Management guidance.
                                     •	 Issue a memorandum to all EPASS Task Order Project Officers that
                                         outlines and reinforces expectations for complying with EPA invoice
For further information,
contact our Office of                    reviewing guidance.
Congressional and Public             •	 Follow up with the Contracting Officer to ensure EPA collects from the
Liaison at (202) 566-2391.               contractor the amount EPA overpaid for billing rate errors in the
                                         contractor’s invoices.
To view the full report,
click on the following link:     The Agency indicated that it has taken actions to address many of our concerns.
www.epa.gov/oig/reports/2008/    However, we believe the actions taken do not adequately address our
20080922-08-P-0271.pdf           recommendations. The Agency needs to take steps to put into place a structure to
                                 ensure that the EPASS project progresses through the System Development Life
                                 Cycle process as required by EPA guidance.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                       September 22, 2008

MEMORANDUM

SUBJECT:	              EPA Personnel Access and Security System Would Benefit
                       from Improved Project Management to Control Costs and the
                       Timeliness of Deliverables
                       Report No. 08-P-0271


FROM:	                 Patricia H. Hill
                       Assistant Inspector General for Mission Systems

TO:                    Wesley J. Carpenter
                       Director, Security Management Division
                       Office of Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $391,452.

Action Required
In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at (202) 566-0894 or
hill.patricia@epa.gov; or Rudolph M. Brevard, Director, Information Resources Management
Assessments, at (202) 566-0893 or brevard.rudy@epa.gov.
EPA Personnel Access and Security System                                                                                    08-P-0271
Would Benefit from Improved Project Management
to Control Costs and the Timeliness of Deliverables




                                    Table of Contents 


Chapters
   1      Introduction ...........................................................................................................      1     


                  Purpose ..........................................................................................................    1         

                  Background ....................................................................................................       1         

                  Scope and Methodology.................................................................................                2         

                  Noteworthy Achievements..............................................................................                 3         


   2 	 EPASS Needs Improved Contract Management and 

       System Development Practices ..............................................................................                      4


                  SMD Did Not Follow Agency Procedures for System Development .............                                             4

                  SMD Did Not Require Contractor to Deliver Tasks by Due Dates..................                                        6

                  SMD Approved Contractor Invoices Containing Overcharges .......................                                       7         

                  Improved Project Management Oversight Needed. .......................................                                 8

                  Recommendations .........................................................................................             8     

                  Agency Comments and OIG Evaluation.........................................................                           9



   Status of Recommendations and Potential Monetary Benefits.................................                                          11 




 Appendices
   A     OIG Estimate of Efficiencies................................................................................... 12 


   B     Agency Response.................................................................................................... 15 


   C     Distribution ............................................................................................................... 20

                                                                                 08-P-0271 





                               Chapter 1
                                Introduction

Purpose
          We sought to determine whether the U.S. Environmental Protection Agency
          (EPA) justified the Information Technology (IT) investments outlined in its
          Capital Investment Plan. We also sought to determine (1) what contract work was
          completed, (2) was it completed within time and budget requirements, and (3) did
          the work meet EPA’s intended needs.

Background
          During Fiscal Year 2007, EPA received $346 million to support acquiring and
          maintaining its IT systems. This funding included costs to procure contract
          services to develop and maintain EPA systems.

          EPA offices document the system acquisition strategies and costs in the business
          cases that support their systems. EPA’s Chief Information Officer reviews this
          information for major IT investments through the Agency’s Capital Planning and
          Investment Control process. This process is a Federal mandate designed to assure
          that investments in IT resources achieve high value outcomes at acceptable costs.
          Upon funding of the proposed business cases by the Office of Management and
          Budget (OMB), EPA offices commence system acquisition plans as detailed in
          the business cases.

          For IT investments reviewed during this audit, EPA offices used contract services
          to acquire the systems. As such, the Contracts Management Manual (CMM) and
          Interim Agency System Life Cycle Management (SLCM) procedures outline
          EPA’s contract management and system development requirements. In particular:

             •	 The CMM requires the Contracting Officer to (1) verify usage of the
                correct contract billing rates and (2) ensure billing rate changes are
                correctly applied at the end of each contract period. The CMM also
                requires the Contracting Officer to verify other conditions that may result
                in re-calculation or adjustment of billing rates. Further, the CMM requires
                offices to perform Government surveillance of the contract. The Agency
                or appointee should review the receipt of services to ensure it is getting
                what it requested and needed. Contracted services should also be
                monitored for compliance with established timeframes.

             •	 The SLCM procedures require offices to complete the system definition
                phase prior to starting the System Development or Acquisition Phase.


                                          1

                                                                                  08-P-0271 



                Most importantly, the procedures require offices to define the systems’
                functional, technical, and data requirements.
 
Scope and Methodology
         We performed this audit from February through October 2007 at EPA
         Headquarters in Washington, DC, in accordance with generally accepted
         government auditing standards. Those standards require that we plan and perform
         the audit to obtain sufficient and appropriate evidence to provide a reasonable
         basis for our findings and conclusions based on the audit objectives. We believe
         the evidence obtained provides a reasonable basis for our findings and
         conclusions.

         We evaluated EPA program offices’ management control processes for
         compliance with Agency contracting and systems development requirements. We
         reviewed contract documents related to the systems reviewed under this audit.
         We interviewed EPA staff responsible for contractor work and management. We
         also reviewed contract invoices and schedules of deliverables.

         We judgmentally selected two EPA systems that represented 20 percent of EPA’s
         Fiscal Year 2007 IT investment portfolio. We did not include financial and
         infrastructure IT investments, as we review these systems yearly during the
         Agency’s financial statement audit or these are included in the Office of Inspector
         General’s (OIG’s) annual audit plan. We reviewed the following systems:

            •	 Water Quality Exchange (WQX) System, within the Office of Water.
               WQX provides a national picture of the surface and groundwater quality
               of the United States. WQX is the result of the redesigned STOrage and
               RETrieval water quality system. Under the Clean Water Act, EPA is
               responsible for monitoring the ambient surface and ground waters of the
               Nation. The Office of Wetlands, Oceans and Watersheds within the
               Office of Water is responsible for developing WQX.

            •	 EPA Personnel Access and Security System (EPASS), within the
               Office of Administration and Resources Management (OARM).
               EPASS is the Agency’s implementation of Homeland Security
               Presidential Directive-12 (HSPD-12), Policy for a Common Identification
               Standard for Federal Employees and Contractors. This standard was
               signed by the President of the United States on August 27, 2004.
               Provisions 4 and 5 of the standard describe the timeline for federal
               departments and agencies to implement the standard. Implementation of
               the standard is to include both physical access to Agency facilities as well
               as electronic or logical access to Agency IT systems. The Security
               Management Division (SMD) within OARM is responsible for developing
               EPASS.



                                          2

                                                                                08-P-0271 



         We did not find notable weaknesses in regards to WQX acquisition and
         subsequently informed the Office of Water of our findings. During preliminary
         research, we also did not find notable weaknesses with EPA processes that
         defined costs contained in Capital Planning and Investment Control business
         cases and did not pursue this area during field work. We were unable to
         determine whether the work would meet EPA’s intended needs because the
         EPASS project is under further development.

         We had no prior report recommendations to follow up on during this audit.

Noteworthy Achievements
         EPA’s management stated it completed many key milestones for the EPASS
         project. EPASS received the authority to operate on January 25, 2007, and
         implemented a physical access control system at EPA's One Potomac Yard in
         Alexandria, Virginia. EPA issued its first smart card in October 2006, and EPA
         has and continues to issue smart cards to employees and non-Federal workers
         throughout the Agency.




                                         3

                                                                                08-P-0271 





                              Chapter 2
  EPASS Needs Improved Contract Management and
          System Development Practices

         Our review disclosed that EPA did not require the EPASS development contractor
         to follow Agency system development procedures. This hindered management’s
         ability to control project costs. Management officials stated they were unable to
         follow Agency procedures because of evolving requirements. However, we found
         EPA did not use a change management process to guide them in decisions for
         accepting risks resulting from the effects of these changing requirements.
         Although a qualified Project Manager was on the EPASS team, the Project
         Manager was not authorized to oversee the contractor’s work or was not
         positioned within the organization to influence major decisions made related to
         the development of EPASS. We further disclosed that EPA paid additional
         charges for invoices that contained errors in contractor labor charges.
         Management’s informal processes for reviewing invoices for accuracy did not
         identify discrepancies before approval and payment. Had EPA implemented
         processes to mitigate system development weaknesses, it would have been better
         able to anticipate the additional $983,216 in costs for EPASS. Further, had EPA
         implemented formal review procedures for contractor invoices, it would have
         prevented paying an estimated $75,276 in billed contractor labor charges.

SMD Did Not Follow Agency Procedures for System Development

         SMD’s management of the EPASS project did not conform to key system
         development requirements required by EPA SLCM guidance. In particular, SMD
         proceeded to develop EPASS without (1) putting in place a structure to control
         undefined EPASS requirements as they are known, and (2) appointing a qualified
         Project Manager who has authority to oversee all EPASS development efforts.

         EPASS Needs Clearly Defined Requirements and Implemented
         Change Management Practices to Control Spending

         SMD did not complete the EPASS Definition Phase before entering into a
         contract to develop the system, nor did the contractor complete the Definition
         Phase once SMD modified the Statement of Work. The Definition Phase defines
         the system’s functional, system, and data requirements and System Owners must
         complete this phase as required by EPA SLCM guidance. The Definition Phase is
         important because it assists management to ensure the intended system will
         support Agency requirements and control project costs. Management stated they
         could not complete the Definition Phase requirements because of the evolving,
         changing, and increasing program requirements imposed by lead Federal


                                         4

                                                                        08-P-0271 



agencies. Therefore, SMD issued a Statement of Work (SOW) that did not have
detailed tasks that defined EPASS’ system requirements. SMD then modified this
SOW to include detailed tasks, which the contractor prepared. However, these
detailed tasks did not require the contractor to perform a Definition Phase.

SMD had not put into place practices to validate newly defined HSPD-12
requirements and formally introduce the new requirements into the EPASS
system development process. A change management process is a key
management control used to record management decisions regarding evolving
system changes. During our discussions with management about the change
management processes, they seemed unaware of EPA requirements. After audit
field work, management provided us the OARM/Office of Administration
Software Development Software Configuration Management Plan in response to
our request for their change management procedures. This plan outlines the
contractor procedures for making system changes to EPASS, upon receipt of a
software change request/software error notice via a trouble ticket system.
However, management did not provide evidence of the processes it uses to
evaluate and approve EPASS system changes from evolving HSPD-12
requirements. Further, the plan (1) is a proprietary document used internally by
the contractor, (2) was not related to EPA-specific SLCM system development
requirements, and (3) was not formally adopted by EPA management. Also, EPA
management had not provided proof it implemented the practices outlined in the
plan.

We found that SMD had not developed a System Management Plan, as required
by SLCM guidance. This plan is the primary managerial document and serves as
a portfolio of required documents used by System Managers to control, assess,
and document the system throughout the SLC. EPA uses this plan as the principal
tool for organizing and managing system project/program management
information throughout the system life cycle.

Since SMD had not fully defined EPASS’ requirements or implemented a process
to control unexpected system requirements, further EPASS system development
efforts are at risk. SMD needs to develop a full picture of EPASS’ end state.
Without this full picture, SMD cannot measure the contractor’s system
development work to ensure EPASS will meet EPA’s desired needs. Had EPA
implemented processes to mitigate system development weaknesses, it would
have been better able to anticipate the additional $983,216 in costs for EPASS.
This upward trend of unanticipated costs has potential to continue because SMD
projects that EPASS development and implementation will continue through
2015.

EPASS Needs a Certified Project Manager

EPASS needs a Project Manager with the skills, qualifications, and authority to
oversee a High-Risk system development project. SMD assigned a Project



                                 5

                                                                                  08-P-0271 



          Officer to oversee the contractors developing EPASS. However, the Project
          Officer’s main responsibility was to perform contract management functions and
          the Project Officer does not possess the qualifications or skills needed to manage
          system development activities for a high-risk project like EPASS. The EPASS
          Project Officer was not familiar with the Agency’s SLCM requirements and, as
          such, was not familiar with system development techniques or processes to reduce
          the risk to the Agency for this high-risk project.

          There was a qualified Project Manager on the EPASS development team who
          indicated some involvement with system development and system design;
          however, the Project Manager was not given responsibility for monitoring the
          contractor's progress, work, and costs. The Project Officer did not want the
          assigned Project Manager to have authority or responsibility for (1) reviewing the
          contractor's monthly status reports, (2) monitoring work, and (3) reviewing
          invoices, because the Project Officer stated they would not be comfortable with
          the Project Manager having all of these responsibilities. The Project Officer
          performs some of these duties, but does not have the required training and
          experience to be appointed as a Project Manager, and does not have the time to
          get the certification. Therefore, management listed the Project Manager on the IT
          business case submitted to OMB for funding even though the Project Manager
          was not fulfilling the role as required by OMB and EPA.

          EPA's SLCM procedures require assigning a Project Manager who is responsible
          for managing the entire project through its life cycle. These responsibilities
          include managing the project’s compliance with EPA SLCM policy and
          procedures, funding and resources, and system development processes.
          According to OMB, skilled project managers are critical in managing contractor
          activities to ensure they achieve intended outcomes. As such, it appears that
          management placed the certified Project Manager on the project team to receive
          funding for EPASS and not to oversee the system development processes as
          intended by OMB.

          After audit field work, we learned that SMD issued a new SOW, with potential
          funding of $9.6 million over the life of the contract. This new SOW will be used
          to continue EPASS system development and deployment. SMD officials stated
          that system development costs are about 10 percent of the new SOW. If SMD
          uses a system development approach as specified in EPA guidance, we estimate
          EPA could better anticipate $902,530 in unplanned project costs. See Appendix
          A for details.

SMD Did Not Require Contractor to Deliver Tasks by Due Dates
          Tasks listed in the modified EPASS SOW were either late or lacked information
          on which to determine when the contractor was required to complete the assigned
          tasks. EPA’s CMM requires offices to perform government surveillance of the
          contract. The CMM requires the respective office to review the receipt of


                                           6

                                                                                    08-P-0271 



         services to ensure it is getting what it requested and needed. The CMM also
         requires that contracted services should also be monitored for compliance with
         established timeframes.

         SMD had the contractor prepare a detailed list of tasks with the dates the tasks
         were due. However, our review of the tasks and milestones revealed that
         59 percent (75 of 127) of the tasks were delivered at least 1 month or more late.
         Also, 27 of the 127 tasks either did not have a due date or a date delivered.
         Management had not responded to our inquiries regarding these late or undated
         deliverables.

         The Government Accountability Office recognizes that mature and effective
         management of IT investments can vastly improve government performance and
         accountability. Without good management, such investments can result in
         wasteful spending and lost opportunities for improving delivery of services. We
         feel this lack of oversight over deliverables, coupled with the absence of basic
         system development practices as previously discussed, contributed to the
         unpredicted overspending on the development of EPASS.

SMD Approved Contractor Invoices Containing Overcharges
         From November 2005 through July 2007, SMD did not have formal processes for
         reviewing invoices and did not identify incorrect labor charges on at least 10
         monthly invoices paid by EPA. EPA's CMM states the Contracting Officer
         should periodically verify usage of the correct rates. This includes reviewing
         rates that change at the end of each contract period and verifying rates that are re-
         calculated or adjusted for any other reasons.

         We learned that SMD subsequently reviewed all previous contractor invoices,
         identified billing discrepancies, and notified the Contracting Officer of the
         discrepancy. The Contracting Officer, in turn, issued a written request to the
         contractor regarding this matter. Based on our calculations, EPA paid an
         estimated $75,276 in incorrect contractor labor overcharges. See Appendix A for
         details.

         We further learned that after field work, the new EPASS Project Officer
         appointed five Task Order Project Officers and made them responsible for
         reviewing contractor invoices. Although SMD did not document this new internal
         review process, this informal practice resulted in SMD disapproving an invoice
         due to questions over billing.

         Having documented procedures is the cornerstone of an effective internal control
         environment. Formal procedures help to ensure that personnel are aware of their
         responsibilities and understand the tasks that management intends to be
         accomplished. Because SMD uses a distributed structure for reviewing invoices,




                                           7

                                                                                08-P-0271 



         it is imperative that SMD document these procedures to ensure processes are
         followed during day-to-day operations and personnel turnover.

Improved Project Management Oversight Needed
         In discussions with OARM management regarding these findings, management
         indicated that:

            •	 Although EPASS had not been able to comply with EPA’s SLCM policy
               for the definition phase, it has complied for management of other key
               components, such as architecture planning, investment management, and
               security planning.

            •	 EPASS did, and continues to have, a Project Officer authorized to oversee
               the contractor’s work.

            •	 OIG should focus on cost benefits of project accomplishments rather than
               total expenses, among these, issuing 7,000 smart cards to EPA employees
               and non-federal workers.

         We recognize that developing an information system during a period where
         federal requirements continually evolve is a significant undertaking for SMD and
         its management. We further recognize that EPA is on the leading edge of federal
         agencies that have issued smart cards to its civilian employees and contractors.
         Although innovation involves taking risks, we feel that it is incumbent upon
         management to implement practices for innovation to mitigate risks to an
         acceptable level.

         Developing EPASS is a high-risk undertaking. We feel that SMD chose to follow
         an ambitious implementation plan, which resulted in SMD spending the total
         project funding within 27 months. Our concern is that the Federal HSPD-12
         requirements are now defined and SMD has yet to establish the formal processes
         needed to minimize the risk to EPA and guide them in the continued development
         of EPASS.

Recommendations

         We recommend that the Director, Security Management Division, Office of
         Administration, Office of Administration and Resources Management:

         2-1 	 Develop and maintain an EPASS System Management Plan. The plan
               should include all documentation that supports management’s adherence to
               all controls gates and decision points related to ensuring EPASS compliance
               with prescribed EPA SLCM guidance. The plan should also include all
               required change management and required information security documents.



                                         8

                                                                                 08-P-0271 





         2-2 	 Appoint a certified EPASS Project Manager as required by EPA SLCM.
               The appointment memorandum should also include specific language to
               reinforce expectations for that person to manage the EPASS project through
               its life cycle and ensure compliance with EPA’s SLCM guidance.

         2-3 	 Issue a memorandum to all EPASS Task Order Project Officers that outlines
                and reinforces expectations for complying with EPA invoice-reviewing
                guidance.

         2-4 	 Follow up with the Contracting Officer to ensure EPA collects from the
               contractor the amount EPA overpaid for billing rate errors in the
               contractor’s invoices.

Agency Comments and OIG Evaluation
         The Agency indicated that it has taken actions to address many of our concerns.
         However, we believe the actions taken do not adequately address our concerns.
         The Agency’s complete response is at Appendix B.

         In general, EPA disagrees with the report’s findings. EPA indicated:

            •	 It was not able to follow prescribed EPA system development guidance
               because the requirements for the EPASS project were unknown at the
               initiation of the project.

            •	 A qualified Project Officer and Project Manager were involved in the
               EPASS project from its inception. The Project Officer had overall project
               responsibility while the Project Manager was to manage the IT aspects,
               including the contractor’s performance.

            •	 There are no real cost overruns, savings to identify, or misspent monies.

            •	 EPASS invoices are reviewed and paid following the guidelines set forth
               in Chapter 11 of the Contracts Management Manual, and Chapter 3 of the
               Recertification for Contracting Officer Representative Manual.

         We found that although the EPASS requirements were not know at the initiation
         of the project, EPA had not taken steps to put in place processes to control the
         cost of the EPASS project. As such, EPA had not developed a System
         Management Plan to manage the EPASS project and document key decisions and
         control points completed as required by EPA guidance. Furthermore, OARM had
         not implemented a Change Management Process to ensure that as new project
         requirements occurred, there was a system in place to introduce these
         requirements in the system development process.



                                         9

                                                                        08-P-0271 



Our research and interviews concluded that although the EPASS project had a
certified Project Manager listed on the project, the employee was not responsible
for ensuring the project progressed through the System Development Life Cycle
(SDLC) as required by EPA and OMB guidance. We found that the Project
Manager lacked authority to guide the EPASS project and was not receiving cost
information necessary to monitor the contractor’s performance. We believe that
had OARM assigned a Project Manager with authority to guide the EPASS
project, OARM would have had a better handle over the unanticipated additional
costs for EPASS. Additionally, OARM would have been able to put into place
processes that would have minimized the risk to EPA when undertaking a high-
risk project with evolving requirements. Furthermore, our research and
interviews revealed that the assigned EPASS Project Officer lacks the knowledge
and experience necessary to provide system development guidance on a project of
this magnitude. Therefore, we believe that in order for EPASS to successfully
progress through the required SDLC stages, OARM should assign a certified
Project Manager with authority to guide the project.

With respect to OARM’s invoice payment processes, although OARM assigned
five Task Order Project Officers responsible for reviewing the contractor
invoices, our subsequent interviews revealed that some personnel had not
received the invoices to review until August 2008. Furthermore, even though
OARM cites that it follows invoice review procedures outlined in EPA’s Contract
Management Manual, we found that OARM had not issued guidance to the five
Task Order Project Officers outlining their specific responsibilities for
documenting invoice reviews. The documentation of invoice reviews is required
by EPA guidance, and because OARM has a distributed process for reviewing
invoices, it is incumbent upon management to set the standards for this process to
ensure consistency.

OARM also provided a status of its actions to address the report’s
recommendations. OARM indicated that it has taken sufficient action to address
the report recommendations. However, for the reasons cited above, we believe
OARM has not taken action to address the report’s recommendations. OARM
should take steps to put in place a structure to ensure that the EPASS project
progresses through the SDLC process as required by EPA guidance.




                                10 

                                                                                                                                           08-P-0271



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1         Action Official             Date      Amount      Amount

    2-1       8     Develop and maintain an EPASS System                     U            Director, Security                      $902.5
                    Management Plan. The plan should include all                        Management Division,
                    documentation that supports management’s                          Office of Administration,
                    adherence to all controls gates and decision points              Office of Administration and
                    related to ensuring EPASS compliance with                         Resources Management
                    prescribed EPA SLCM guidance. The plan should
                    also include all required change management and
                    required information security documents.

    2-2       9     Appoint a certified EPASS Project Manager as             U            Director, Security
                    required by EPA SLCM. The appointment                               Management Division,
                    memorandum should also include specific                           Office of Administration,
                    language to reinforce expectations for that person               Office of Administration and
                    to manage the EPASS project through its life cycle                Resources Management
                    and ensure compliance with EPA’s SLCM
                    guidance.


    2-3       9     Issue a memorandum to all EPASS Task Order               U            Director, Security
                    Officers that outlines and reinforces expectations                  Management Division,
                    for complying with EPA invoice-reviewing                          Office of Administration,
                    guidance.                                                        Office of Administration and
                                                                                      Resources Management

    2-4       9     Follow up with the Contracting Officer to ensure         U            Director, Security                      $75.2
                    EPA collects from the contractor the amount EPA                     Management Division,
                    overpaid for billing rate errors in the contractor’s              Office of Administration,
                    invoices.                                                        Office of Administration and
                                                                                      Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 11 

                                                                                         08-P-0271 



                                                                                    Appendix A

                        OIG Estimate of Efficiencies
I. Estimated Efficiencies for Recommendation 2-1
The condition found involves:

   Reduction in Outlays
   De-obligation of Funds
   Avoidance of Unnecessary Expenditures
   Increase in Revenue (e.g., Uncollected Fees)
 X Other

Based on SMD’s anticipated costs for the current SOW, the OIG estimates SMD spent
approximately $1,321,946 more than anticipated for the first 2 years. SMD has prepared a new
SOW to continue system development and deployment. It estimates 10 percent of the new SOW
will be for system development. If SMD follows OIG recommendations, the estimated efficiencies
will total $902,530 for the new SOW’s base year and 4 option years as described below.

Estimate involves efficiencies/savings related to:

   a one-time event
 X the current and following year for operations of a continuing nature
   the next 5 years for reductions in a long-term program or program terminations

Calculation of Gross Savings

The OIG estimates that SMD could avoid project costs escalating over budget on the new
EPASS contract by an amount similar to what was underestimated on the EPASS contract that
ended in January 2008. Management indicated that approximately 10 percent of the new EPASS
$16,936,737 contract is related to system development efforts by the contractor. The OIG’s
calculation of Gross Savings is as follows:

Current SOW

The first calculation relates to the base period and option period 1. Each period is 12 months,
beginning in November and ending in October.

Amount Budgeted for Base Period                                           $ 765,863
Amount Budget for Option Period 1                                         + 622,037
Total Budgeted for Base Period and Option Period 1                        $ 1,387,900

Paid Invoices through July 2007 (21 invoices)                             $ 2,371,116
Total of Budget Base Period and Option Period 1                           - 1,387,900
Amount Underestimated through July 2007                                   $ 983,216


                                                12 

                                                                                      08-P-0271 



The following calculation estimates the cost of invoices not yet approved (August-October 2007)
for the current period. We did this to project an amount for a full 12 month period. We
calculated a monthly estimate by averaging the total amount of all invoices received.

Paid Invoices through July 2007 (21 invoices)                          $ 2,371,116
Average amount per invoice ($2,371,116 / 21 invoices = $112,910)
Estimate for 3 Months of Invoices (August-October 2007)
 ($112,910 X 3 months)                                                 + 338,730
Total Estimated Project Costs                                          $ 2,709,846

Total Amount Unanticipated ($2,709,846 - $1,387,900)                   $ 1,321,946

Percentage of Unanticipated Costs on Current SOW
 ($1,321,946 / $1,387,900)                                                    95%

New SOW

Amount Budgeted for New SOW                                             $9,611,890

Percentage of SOW Identified as System Development                            10%

Amount Attributed to System Development ($9,611,890 X 10%)              $ 961,189

Percentage of Historical Unanticipated System Development Costs                95%

Estimated Unanticipated Costs if
 Recommendation 2-1 is Not Implemented ($961,189 X 95%)                  $ 913,130

(a) Gross Estimates of Efficiencies                                      $ 913,130


Calculation of Cost to Implement Recommendation 2-1

The OIG estimates it will take SMD 10 days to comment on the OIG’s estimate; 5 days to draft
the technical direction memorandum; and 2 days for the Contracting Officer to review the
technical direction memorandum and issue it to the contractor. The cost to implement is
estimated as follows:

Estimated 7 days by GS-15 at $700 per day                                            $ 4,900
Estimated 7 days by GS-14 at $600 per day                                            + 4,200
Estimated 3 days by GS-13 at $500 per day                                            + 1,500
(b) Total estimated costs to implement                                               $10,600

Estimate of Net Efficiencies/Savings

(a – b) or ($913,130 - $10,600)                                                  $ 902,530



                                              13 

                                                                                       08-P-0271 



II. Estimated Efficiencies for Recommendation 2-5
The condition found involves:
   Reduction in Outlays
   De-obligation of Funds
   Avoidance of Unnecessary Expenditures
   Increase in Revenue (e.g., Uncollected Fees)
 X Other
Management approved contractor invoices that contained overcharges. The contractor
overcharged on at least 10 monthly invoices for incorrect labor rates or incorrect labor
categories. As a result, EPA overpaid an estimated $75,275.66 in contractor labor charges.

Estimate involves efficiencies/savings related to:
____ a one-time event
 X the current and following year for operations of a continuing nature
____ the next 5 years for reductions in a long-term program or program terminations

Calculation of Gross Savings
SMD identified 10 invoices in which the contractor over-billed EPA for incorrect labor charges.
The calculation of gross savings is as follows:
Invoice Month                           Amount Overcharged
September 2006                             $ 9,959.08
October 2006                                11,504.21
November 2006                                4,232.42
January 2007                                 5,548.55
February 2007                                3,369.80
March 2007                                   4,764.20
April 2007                                   3,718.40
May 2007                                     5,112.00
June 2007                                   10,663.05
July 2007                                   16,403.95
(a) Gross Estimate of Efficiencies         $75,275.66

Calculation of Cost to Implement Recommendation 2-5
The OIG estimates it will take SMD 1 hour to follow up with the Contract Officer to ensure
EPA has received payment from the contractor for overcharges.
Estimated .0125 day by GS-15 at $700 per day                                   87.50
(b) Total estimated costs to implement                                    $    87.50

Estimate of Net Efficiencies/Savings
(a – b) or ($75,275.66 - $87.50)                                          $75,188.16


                                                14 

                                                                                          08-P-0271 



                                                                                      Appendix B

                                 Agency Response


                                          August 5, 2008

MEMORANDUM

SUBJECT:       OARM Response to Draft Audit Report:
               EPA Personnel Access and Security System Would Benefit
               From Improved Project Management to Control Costs and the Timeliness
               of Deliverables
               Assignment No. 2007-000557

FROM:          Wesley J. Carpenter, Director /s/
               Security Management Division

TO:            Rudolph M. Brevard, Director
               Information Resources Management Assessments

       OARM appreciates the opportunity to comment on the latest version (June 24, 2008) of
the Draft OIG Audit Report of EPASS, Assignment Number 2007-000557. We believe that
most of our comments pertaining to the earlier drafts are still valid; therefore, we have attached
and are resubmitting them for inclusion in the final report.

        We thank you again for your consideration and hope that we can reach a satisfactory
resolution of these issues.


Attachment

cc:    	Renee Page
       Dennis Bushta
       Cheryl Reid




                                                15 

                                                                                                 08-P-0271 



                                          OARM’S COMMENTS 


Our comments are organized by the four themes highlighted in the latest version (June 24, 2008) of the
OIG discussion draft audit report on EPASS. Per the OIG’s request, ancillary comments have been
added to each theme to better depict and summarize previous comments submitted by OARM during its
review of the three previous draft reports.

1. 	 OIG Theme No. 1: OARM did not follow EPA’s interim System Life Cycle Management (SLCM)
     procedures, which require proposed IT systems be defined in terms of functional, technical,
     and data requirements prior to project initiation, development, or acquisition.

   OARM’s Comments: In order to maximize the effectiveness of the SLMC in developing new IT
   applications, a clear knowledge of functional, technical and data requirements is essential prior to
   project initiation, development, or acquisition. Unfortunately, such complete knowledge was not
   available by the time the EPASS project had to be initiated. If EPA had delayed initiation until all up-
   front information had been available, the Agency would not have been able to meet federally
   mandated implementation deadlines.

   •	    The IG report does not mention that the EPASS project was mandated by the White House and
         was the first of its kind ever undertaken by the Federal government, EPA, or the private sector.
         Because of HSPD-12’s stringent implementation deadlines, Agency activities had to be initiated
         amid many uncertainties and unknowns, changing requirements, and equipment and technology
         use restrictions.

   •	    At the time of contract award, final HSPD-12 PIV standards had not been issued nor had the
         relevant equipment or software been properly tested and approved by NIST and GSA for
         inclusion on the government’s approved procurement list (APL).

   •	    Over the life of the project, additional or supplemental OMB policy and NIST technical documents
         have been published adding either new requirements or amending those already in place. In fact,
         between March 2006 and August 2008, a total of 11 technical documents impacting HSPD-12
         configuration and specifications were issued creating additional work for all agencies.


    Ancillary Comments OIG Theme No. 1:
    •	 In order to accurately portray EPASS, the report should provide a fair and equitable description of
       why the program was implemented, what the program is designed to accomplish, its mandates,
       timeframes, and the circumstances surrounding implementation. Insert a background statement
       on EPASS in the report’s introduction to provide the necessary framework to completely
       understand the full complexity of the program.

    •	   The report states that EPASS lacked a detailed statement of work (SOW). The reason the SOW
         did not contain detailed tasks had nothing to do with the allegation that SMD did not follow SLCM
         procedures. In the case of a project where little is known about specific requirements, it is not
         uncommon for the SOW to be void of detailed tasks and deliverables. The original EPASS
         contract recognized this and, upon award of the first option year, the contract was amended to
         include detailed tasks and deliverables.
    •	   The OIG report states that 59 percent (75 of 127) of EPASS’ tasks were either late or lacked
         information on due dates. It also states the SOW didn’t contain specific tasks. These are
         statements are conflicting; they need to be reconciled prior to the next iteration of the report.

    •	   OARM strongly recommends that the OIG interview the EPASS CO to better understand the
         contracting process and how the EPASS contract was advertised and awarded. This request has
         continually been ignored.




                                                    16 

                                                                                                     08-P-0271 



2. 	 OIG Theme No. 2: OARM did not assign an EPASS Project Manager who has the certification
     and authority to oversee contractor performance and compliance with EPA’s interim SLCM.

   OARM’s Comments: A qualified Project Officer and Project Manager (IT) were involved in this
   project from inception. The Project Officer had overall project responsibility while the Project
   Manager was to manage the IT aspects, including the contractor’s performance.

   •	   Since inception of this project in late 2005, all monthly reports and invoices were shared with the
        PM.

   •	   The PM played a key role in monitoring the ongoing performance of the contractor as well as
        providing oversight and direction for the technical aspects of the contract.

   Ancillary Comments OIG Theme No. 2:
   •	 This conclusion is not supported by the facts. No such restriction was ever placed on the PM
      (IT).

   •	   OARM has strongly recommended that the OIG interview the EPASS PM to better understand
        the details of EPASS contract administration and management. This request has continually
        been ignored and neither the original PM, nor the CO, have ever been interviewed.


3. 	 OIG Theme No. 3: Costs were more than expected and unanticipated; unnecessary
     expenditures could have been avoided.

   OARM’s Comments: Due to the many uncertainties and unknowns that existed at the inception of
   this project, total costs and time frames were underestimated. However, this does not support the
   OIG’s implication that funds were wasted or misused. The report’s references to potential monetary
   benefits, estimates of efficiencies, gross savings, and avoidance of unnecessary expenditures are
   unsubstantiated and should be deleted.

   •	   The IG Report continues to imply that OARM overran costs on the contract, which is misleading
        as is the potential cost savings based on this notion.

   •	   Any increase in costs was due to evolving, changing, and increasing program requirements
        imposed by lead Federal agencies resulting in an expanded level of effort.

   •	   The follow-on contract was awarded March 19, 2008, and includes a base year and four one-year
        option periods with a total contract ceiling amount of $9.6 million.

   •	   The best way to measure EPASS cost benefits is to evaluate project accomplishments against
        total expenditures (i.e., OMB and internal EPA approvals of the HSPD 12 implementation plan;
        meeting executive mandate to issue smartcards by October 26, 2006; implementing a federally
        compliant physical access control system at Potomac Yard; and issuing almost 14,000
        smartcards to EPA employees and non-Federal workers).

   Ancillary Comments OIG Theme No. 3:
   •	 There are no real cost overruns, savings to identify, or misspent monies; therefore, remove any
      references to these unsubstantiated issues.

   •	   If the OIG really feels that there is legitimate cost savings to capture, then the way to do it is by
        means of a bona fide cost benefit analysis.




                                                      17 

                                                                                              08-P-0271 



4. 	 OIG Theme No. 4: OARM has no formal procedures for reviewing and approving contract
     invoices or addressing overpayments.

    OARM’s Comments: EPASS invoices are reviewed and paid following the guidelines set forth in
    Chapter 11 of the Contracts Management Manual and Chapter 3 of the Recertification for
    Contracting Officer Representative Manual. It was this review that led to SMD identifying the
    contractor’s overbilling after receipt of the invoice from the contractor.

   •	   Each month every invoice is reviewed by all TOPOs (IT, ID Proofing/ Registration, and PACS)
        before final PM approval.

   •	   Currently, the $75,276 overpayment has been suspended by the CO and COTR. The 

        contactor’s request for the funds has been denied by the CO. 


   Ancillary Comments OIG Theme No. 4:
   •	 This theme implies SMD has no process for reviewing invoices. This is not true; review of
      contractor invoices follow the guidelines set forth in Chapter 11 of the Contracts Management
      Manual and Chapter 3 of the Recertification for Contracting Officer Representative Manual. Each
      month every invoice is reviewed by all TOPOs (IT, ID Proofing/ Registration, and PACS) before
      final PM approval.

   •	   The OIG report states that the EPASS project paid $75,276 in erroneously billed contractor labor
        overcharges. What it fails to mention is this issue was raised by the EPASS PM prior to
        approving the first invoice containing overcharges.

   •	   Subsequent invoices containing overcharges were also paid. At issue was the contractor’s ability
        to increase its rates whenever a contract option period was exercised early.

   •	   The EPASS PM was compelled to pay subsequent invoices pending the outcome of discussions
        between the CO and contractor.

   •	   Once a formal CO decision was rendered, all overcharges were recovered.



   Status of Recommendations and Potential Monetary Benefits

   2-1 Develop a Technical Direction memorandum that specifies how the contracting firm must
       implement system development processes compliant with EPA’s SLCM. Technical Direction
       memorandum should specify that no system development should begin until the company
       defines, and EPA approves, the requirements for the system under development. The Technical
       Direction memorandum should be approved by the EPASS Contracting Officer and issued to the
       company awarded the new EPASS contract.
       Status: Section C.2, Compliance with EPA Policies for Information Resources Management
       (EPAAR 1552.211-79, Oct. 2000), part (b) (1) of the newly awarded EPASS contract requires the
       contractor to comply with the 2100 Series (2100-2199) of the Agency’s Directive System which
       contains the requirements for SLCM compliance.
       Planned Completion Date: Complete on contract award date, March 16, 2008.

   2-2 Develop and implement a formal Change Management process that meets the requirements of
       EPA’s SLCM guidance.
       Status: Section C.2, Compliance with EPA Policies for Information Resources Management
       (EPAAR 1552.211-79, Oct. 2000), part (b) (1) of the newly awarded EPASS contract requires the
       contractor to comply with the 2100 Series (2100-2199) of the Agency’s Directive System which
       contains the requirements for SLCM compliance.



                                                   18 

                                                                                         08-P-0271 



    Planned Completion Date: Complete on contract award date, March 16, 2008.

2-3 Assign a Project Manager who has the certification and the authority to oversee the EPASS
    project as required by EPA’s SLCM guidance.
    Status: We already have a certified PM with authority to oversee the contractor’s performance.
    Planned Completion Date: Since inception of the original contract.

2-4 Develop and document formal procedures for reviewing contractor invoices.
    Status: EPASS invoices are reviewed and paid following the guidelines set forth in Chapter 11 of
    the Contracts Management Manual and Chapter 3 of the Recertification for Contracting Officer
    Representative Manual.
    Planned Completion Date: Since inception of the original contract.

2-5 Follow up with the Contracting Officer to ensure EPA collects from the contractor the amount EPA
    overpaid for billing rate errors in the contractor’s invoices.
    Status: The cost associated with the overpayment of $75,276 was previously suspended by the
    CO, so the Agency has already recovered the money. The EPASS CO has officially disapproved
    the contractor’s request for a refund of these funds.
    Planned Completion Date: Complete on January 16, 2008.




                                              19 

                                                                                 08-P-0271


                                                                             Appendix C

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Director, Office of Administration, Office of Administration and Resources Management
Director, Security Management Division, Office of Administration and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Deputy Inspector General




                                            20 

